TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  While Controls Have Been Implemented to
                  Address Malware, Continued Attention Is
                   Needed to Address This Growing Threat



                                          March 10, 2009

                              Reference Number: 2009-20-045




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  March 10, 2009


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – While Controls Have Been Implemented to
                               Address Malware, Continued Attention Is Needed to Address This
                               Growing Threat (Audit # 200820014)

 This report presents the results of our review of malware prevention and response controls. The
 overall objective of this review was to determine whether adequate security controls are present
 to prevent and respond to malware attacks. This review was included in the Treasury Inspector
 General for Tax Administration Fiscal Year 2008 Annual Audit Plan and was part of our
 statutory requirements to annually review the adequacy and security of Internal Revenue
 Service (IRS) information technology.

 Impact on the Taxpayer
 Malware, also known as malicious code or malicious software, refers to a computer program that
 is inserted into a computer system with the intent of compromising the confidentiality, integrity,
 or availability of an organization’s data, applications, or operating systems. The IRS’ preventive
 and response controls to address malware are generally effective, but continued attention should
 be given to 1) limiting some practices that increase the risk of a malware incident1 and
 2) increasing employees’ awareness of their responsibilities for preventing a malware incident.
 Without ongoing attention in these areas, IRS computers and the sensitive taxpayer data stored
 on them are at risk of compromise that could ultimately result in theft of taxpayer identities and
 fraud.




 1
  A successful malware incident is one in which the code successfully installs itself on the target computer and can
 begin executing to accomplish its intended objective.
                     While Controls Have Been Implemented to Address Malware,
                    Continued Attention Is Needed to Address This Growing Threat




Synopsis
Malware is a threat that affects all computer system users and is an evolving challenge that is
difficult to combat because new malware is written faster than ever before. Malware can be
written to disrupt computer system operations, commit identity theft and credit card fraud, and
monitor user activity. During Calendar Year 2008, the IRS responded to 961 malware incidents,
an increase of 45 percent over the prior year.
The Computer Security Incident Response Center (CSIRC) is responsible for providing the IRS
with a team of capable “first responders” organized, trained, and equipped to identify, contain,
and eradicate cyber threats targeting IRS computing assets. We determined that the CSIRC’s
responses to malware incidents were timely and thorough.
To prevent the introduction of malware, the IRS must provide current antivirus software for all
workstations and servers, take actions to limit risky practices, and provide regular employee
awareness training. Workstations are automatically scanned weekly. However, only 89 percent
of IRS servers were scanned weekly. The remaining servers were scanned less frequently or not
at all. The introduction of malware on servers is particularly risky because many users access
them, making the spread of the malware to other computer systems more likely.
The IRS had adequately implemented many of the enhanced controls outlined in a
December 2007 Department of the Treasury memorandum2 to block known malicious sites and
prohibit administrator accounts from receiving email from accounts outside of the Department.
The IRS is also adequately preventing access to online email accounts outside of the Department
for all user accounts, in compliance with its own policy.
The Department of the Treasury memorandum also prohibits administrators from using their
administrator accounts to access the Internet unless authorized in writing by the Bureau Chief
Information Officer or his or her designee. The Internet is a primary source for malware
infections, and administrator accounts are particularly attractive to persons wanting to cause
harm to the IRS because the accounts have powerful privileges such as adding users and
modifying configurations. If these accounts were infected with malware, unauthorized persons
could obtain the same privileges and do malicious damage to the IRS computer network. We
identified 63 administrator accounts that had successfully accessed Internet web sites a total of
820 times in a 1-week period. None of these accounts were authorized to access the Internet by
the IRS Chief Information Officer. Non-administrator accounts could have been used to
accomplish the same purposes without increasing the risk of a malware infection.
Our review of malware incidents reported in Calendar Year 2007 showed that the incidents were
caused by IRS employees engaging in activities that increase the risk of malware infection, such


2
    Department of the Treasury memorandum “Enhanced Cyber Security Controls,” dated December 20, 2007.
                                                                                                         2
                 While Controls Have Been Implemented to Address Malware,
                Continued Attention Is Needed to Address This Growing Threat



as using removable storage devices, downloading software, and opening attachments or links in
email. The CSIRC does not routinely contact users when their authorized system activity results
in a successful malware incident or when the incident is caused by a violation of IRS policy. We
believe that informing users of their specific activities that resulted in malware infections would
serve to supplement and personalize the mandatory annual security training provided to
employees and better educate users about the malware threat. In addition, while the mandatory
annual security training for IRS employees and contractors includes common ways in which
users can infect systems with malware, it does not include a thorough list of the actions that have
led to malware infections on IRS systems.

Recommendations
We recommended that the Chief Information Officer 1) schedule automatic scans of antivirus
software on servers, 2) regularly remind administrators not to use their administrator accounts to
access the Internet and monitor Internet activity to determine whether administrators are
complying with this control, 3) notify employees and their managers when their activity results
in a successful malicious code incident, particularly when the activity is a violation of IRS
policy, and 4) update the IRS security awareness training to include the use of portable and
removable media among the common ways in which users can introduce malicious code to the
network and the potential effects.

Response
IRS management agreed with our recommendations and will schedule automated antivirus scans
on servers, use the Symantec™ Antivirus console to regularly monitor servers to ensure that
antivirus scans are executed weekly, and ensure that administrators are regularly reminded of
Internet access restrictions. The CSIRC will continually monitor the enterprise content filtering
solution for Internet access by administrator accounts, regularly report violations of Internet
access by administrators to the Cybersecurity Operations organization and IRS Security Offices
for followup actions, and ensure that employees and their managers are notified regarding
applicable incidents. Finally, the IRS will use the security awareness training course mandated
by the Department of the Treasury that addresses the proper use of portable and removable
media. Management’s complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services), at (202) 622-8510.




                                                                                                  3
                       While Controls Have Been Implemented to Address Malware,
                      Continued Attention Is Needed to Address This Growing Threat




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Responded Appropriately When
          Malware Was Detected .................................................................................Page 3
          Controls to Prevent the Introduction of Malware Can Be Improved............Page 3
                    Recommendations 1 through 4:...........................................Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Management’s Response to the Draft Report ......................Page 14
           While Controls Have Been Implemented to Address Malware,
          Continued Attention Is Needed to Address This Growing Threat




                         Abbreviations

CSIRC              Computer Security Incident Response Center
IRS                Internal Revenue Service
US-CERT            United States Computer Emergency Readiness Team
                      While Controls Have Been Implemented to Address Malware,
                     Continued Attention Is Needed to Address This Growing Threat




                                             Background

Malware, also known as malicious code or malicious software, refers to a computer program that
is inserted into a computer system with the intent of compromising the confidentiality, integrity,
or availability of an organization’s data, applications, or operating systems. Malware can infect
computers in a variety of ways. For example, viruses are self-replicating programs that are often
inserted into computer software or data files through user interaction, such as opening a file or
running a program. In contrast, trojan horses are self-contained, non-replicating programs that
appear to be legitimate programs but that have been replaced or inserted with hidden malicious
code. Malware is delivered through commonly used applications and devices, such as email, the
Internet, and portable media devices.
Malware is a threat that affects all computer system users and is an evolving challenge that is
difficult to combat because new malware is written faster than ever before. A recent report by
F-Secure® notes that as much malware was produced in 2007 as was produced in the previous
20 years combined, based on its detections.1 Similarly, Symantec™ reports that, based on its
research, there are indications that the rate of malware creation might be exceeding that of
legitimate software applications.2 Malware is also difficult to combat because it is delivered
through basic, mission-critical applications such as web browsers and email. For example, in
August 2008, emails claiming to be CNN or MSNBC news alerts were sent to millions of email
accounts in an attempt to lure victims into downloading malware from compromised web sites.
Malware can be written to disrupt computer system operations, commit identity theft and credit
card fraud, and monitor user activity. However, not all malware is driven by financial motives.
In 2006, hackers stole data from the United States Department of State computer network after a
Department of State employee in Asia opened an email that allowed the hackers to break into the
Federal Government’s computer system. The incident caused all of the Department of State’s
Internet connections throughout eastern Asia to be severed.
Within the Internal Revenue Service (IRS), the Computer Security Incident Response Center
(CSIRC) responds to malicious code incidents. The CSIRC is responsible for providing the IRS
with a team of capable “first responders” organized, trained, and equipped to identify, contain,
and eradicate cyber threats targeting IRS computing assets.
The IRS CSIRC also shares information regarding malicious web sites it identifies with other
Federal Government entities via the Government Forum of Incident Response and Security
Teams to enable them to proactively restrict access before they are victimized. From April 1 to


1
    F-Secure® Data Security Wrap-Up 2007.
2
    Symantec™ Internet Security Threat Report, Trends for July–December 2007, Volume XII, published April 2008.
                                                                                                        Page 1
                 While Controls Have Been Implemented to Address Malware,
                Continued Attention Is Needed to Address This Growing Threat



June 30, 2008, the Federal Government entities comprising the Government Forum of Incident
Response and Security Teams blocked 1,228 malicious web sites. The CSIRC provided the
initial intelligence on 461 (38 percent) of these web sites.
Based on incident data obtained from the CSIRC, the number of malware incidents within the
IRS continues to rise each year, as does the IRS’ success in preventing malware infection.
During Calendar Year 2008, the IRS responded to 961 malware incidents, an increase of
45 percent over the prior year.
To address the malware threat, organizations must implement controls to prevent, detect, and
respond to malware. This review focused on the IRS’ efforts in preventing and responding to
malware. An evaluation of IRS malware detection controls could be included in a subsequent
audit.
This review was performed at the IRS National Headquarters in Washington, D.C., in the Office
of Cybersecurity during the period October 2007 through September 2008. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 2
                 While Controls Have Been Implemented to Address Malware,
                Continued Attention Is Needed to Address This Growing Threat




                                 Results of Review

The Internal Revenue Service Responded Appropriately When
Malware Was Detected
Responding to security incidents is one of the CSIRC’s primary responsibilities. CSIRC analysts
actively monitor a wide variety of sources such as intrusion detection systems, firewalls, and
audit logs to identify potential malicious code incidents. During Calendar Year 2007, the CSIRC
identified and responded to 661 malicious code incidents. Once an incident was identified,
CSIRC analysts conducted a thorough analysis to determine the source, nature, and purpose of
the malicious code. The analysts expeditiously coordinated with the Modernization and
Information Technology Services organization and provided instructions for containing and
eradicating the malware to protect IRS systems and data from further infection. When possible,
the analysts also took appropriate steps to prevent future infections by blocking malware-infected
Internet sites. The CSIRC’s responses to the incidents we reviewed were timely and thorough.

Controls to Prevent the Introduction of Malware Can Be Improved
Without sufficient controls to prevent the introduction of malware, IRS computers and the
sensitive taxpayer data stored on them are at risk of compromise that could ultimately result in
theft of taxpayer identities and fraud. To prevent the introduction of malware, large
organizations like the IRS must provide current antivirus software for all workstations and
servers, take actions to limit risky practices, and provide regular employee awareness training.

Although the IRS effectively implemented antivirus controls for workstations,
controls for servers can be improved
While there are numerous ways to help prevent malware from infecting computers, often the last
line of defense is antivirus software, which the IRS requires to be installed on all of its computers
running the Windows operating system. The IRS also requires antivirus scans to be performed at
least weekly.
The IRS’ antivirus implementation was generally adequate. The IRS has an adequate process in
place to ensure that antivirus software is installed on its workstations and servers. For
workstations, which include desktop and laptop computers, virus scans are scheduled to run
weekly. If a computer is not on the network when the scan is conducted, the scan begins once
the computer logs on to the network. The IRS is updating its computers with new virus



                                                                                              Page 3
                    While Controls Have Been Implemented to Address Malware,
                   Continued Attention Is Needed to Address This Growing Threat



signatures3 in a timely manner, with 96 percent of IRS workstations updated within 2 business
days and almost 100 percent updated within 1 week of a new signature being identified.
For servers, virus scans are not automated and must be manually initiated by the system
administrators. Our analysis of antivirus scans conducted over an 8-week period from May 1 to
June 30, 2008, determined that 89 percent of the servers were usually scanned weekly. The
remaining servers were scanned less frequently or not at all because the system administrators
did not always carry out this responsibility. The introduction of malware on servers is
particularly risky because many users access them, making the spread of the malware to other
computer systems more likely.

Attention is needed to ensure that administrator account access to the Internet is
eliminated
Antivirus software alone is not sufficient to combat the evolving malware threat. In
December 2007, the Department of the Treasury issued a memorandum4 requiring enhanced
security controls aimed at preventing practices that increase the risk of introducing malware.
These enhanced controls include restrictions on use of administrator accounts5 and blocking
known malicious web sites.
The IRS has implemented many of the enhanced controls required by the Department of the
Treasury. It has adequately implemented controls to block known malicious sites following
United States Computer Emergency Readiness Team (US-CERT)6 or Departmental notification
of such sites. It is also adequately preventing access to online email accounts outside of the
Department of the Treasury for all user accounts, in compliance with its own policy.
The Department of the Treasury memorandum also prohibits administrators from using their
administrator accounts to receive email from accounts outside of the Department and from
accessing the Internet unless authorized in writing by the Bureau Chief Information Officer or
his or her designee. The Internet is a primary source for malware infections. To limit the risk of
malware infection, system administrators should be assigned two types of accounts. One
account should have the same privileges as those on the accounts for most other employees. The



3
  A virus signature is the binary pattern of the machine code of a particular virus. Antivirus programs compare their
databases of virus signatures with the files on the hard disk and removable media to identify a virus. The antivirus
vendor updates the signatures frequently and makes them available to customers via the Internet.
4
  Department of the Treasury memorandum “Enhanced Cyber Security Controls,” dated December 20, 2007.
5
  An administrator account is a user account present on several popular network operating systems that has the
highest level of control over a system and/or network. This account might have the ability to install hardware and
software on the system; add, modify, or delete user accounts; and modify a system’s security features.
6
  The US-CERT is a partnership between the Department of Homeland Security and the public and private sectors.
Established in 2003 to protect the nation’s Internet infrastructure, the US-CERT coordinates defense against and
responses to cyber attacks across the nation.
                                                                                                             Page 4
                    While Controls Have Been Implemented to Address Malware,
                   Continued Attention Is Needed to Address This Growing Threat



other account should be used to carry out administrator responsibilities and should not be used
for email or Internet access.
Administrator accounts are particularly attractive to persons wanting to cause harm to the IRS
because the accounts have powerful privileges such as adding users and modifying
configurations. If these accounts were infected with malware, unauthorized persons could obtain
the same privileges and do significant damage to the IRS computer network. For IRS systems,
malware can be used to steal taxpayer data, spy on IRS employee activities to gain access to IRS
applications, and disrupt IRS computer operations.
The IRS is adequately preventing administrator accounts from receiving email from outside of
the Department of the Treasury and has established procedures for assigning two accounts to
administrators. However, in a 1-week period in February 2008, we identified 63 administrator
accounts that successfully accessed Internet web sites a total of 820 times. These accesses
appeared to be appropriate, with most accesses made to work-related sites. However, the
administrator accounts were not authorized to access the Internet by the IRS Chief Information
Officer. Non-administrator accounts could have been used to accomplish the same purposes
without increasing the risk of a malware infection.
Although we found relatively few accesses by administrators, the scope of our review was
limited to only a 1-week period. The IRS did not conduct sufficient monitoring to identify
administrator accounts being used to access the Internet. As a result, we do not have assurance
that accesses by administrator accounts are sufficiently controlled to prevent compromise by
malware-infected sites.

Increased employee awareness of common causes of malware infections is
needed
Because security products alone cannot protect systems from the threat of malware, employee
awareness training is critical. If users are not sufficiently informed of the threats associated with
their activities, they will likely continue to introduce malicious code into the IRS network.
Our review showed that the malware incidents reported in Calendar Year 2007 were caused by
activities that increase the risk of malware infection, such as using removable storage devices,
downloading software, and opening attachments or links in email. Of the 661 incidents reported
in Calendar Year 2007, 311 were successful.7 Of these, 216 (69 percent) were caused by
accesses to the Internet. Most of the accesses were to authorized Internet sites. However, users
were inadvertently redirected to malicious web sites.




7
 A successful malware incident is one in which the code successfully installs itself on the target computer and can
begin executing to accomplish its intended objective.
                                                                                                             Page 5
                    While Controls Have Been Implemented to Address Malware,
                   Continued Attention Is Needed to Address This Growing Threat



As a result of these actions, the CSIRC found systems infected with malware in the form of
viruses, worms, trojans, and spyware.8 CSIRC analysts noted in their reviews of malware
incidents that these types of malware have the potential to corrupt the integrity of the data, affect
the availability of resources, disclose sensitive data, or further propagate throughout the
enterprise.
The CSIRC does not routinely contact users when their authorized system activity results in a
successful malware incident. Users are contacted when their use of removable media results in a
malicious code infection, but they are not contacted for other common causes of malware. We
believe that notifying users and informing them of their specific activities that resulted in
malware infections would serve to supplement and personalize the mandatory annual security
training and better educate users about the malware threat. Notification would make users more
aware of the risks of Internet use and raise awareness that their Internet use can affect the
performance of their responsibilities by disabling their computer system and possibly other
systems on the IRS network.
The CSIRC does not have standard operating procedures to address malware incidents when they
are caused by user policy violations. The CSIRC responses address the malicious code but do
not always address the policy violation that caused the malicious code. As a result, policy
violations that can lead to malware infections are inconsistently handled. The policy violations
we identified included using personal portable hard drives, downloading unauthorized software,
and accessing unauthorized Internet sites. For some incidents caused by using personal portable
hard drives, the CSIRC ensured that the user was contacted and counseled about IRS policy.
However, we identified 23 successful and unsuccessful malicious code incidents caused by users
violating IRS information technology resources and security policies that were closed without
the users being contacted or counseled about their actions. We believe that the CSIRC has a
responsibility to notify employees and their managers when their actions violate IRS policies.
IRS employees and contractors are required to annually certify that they have completed the IRS
Information Protection Mandatory Briefing, which includes security awareness refresher
training. The mandatory annual security training for IRS employees and contractors covers
common ways in which users can infect systems with malware. The IRS security awareness
training should be updated to include a more thorough list of the actions that have led to malware
infections on IRS systems. The training presentation lists the opening of virus-infected email
attachments, installing software downloaded from the network, and linking to web sites


8
  A virus is a self-replicating program that is inserted into computer software or data files. Viruses are often
triggered through user interaction, such as opening a file or running a program. A worm is usually a small,
self-contained and self-replicating computer program that invades computers on a network and usually performs a
destructive action. A trojan is a self-contained, non-replicating program that, while appearing to be benign, actually
has hidden malicious code. Trojan horses either replace existing files with malicious versions or add new malicious
files. Spyware is software that collects information from computers and transmits it to third parties without the
knowledge or informed consent of computer users.
                                                                                                              Page 6
                 While Controls Have Been Implemented to Address Malware,
                Continued Attention Is Needed to Address This Growing Threat



containing malware as common ways in which users can infect systems with malware.
However, the training does not include the use of personal portable devices and removable media
as common ways in which users can infect systems with malicious code. Of the 661 malware
incidents reported in 2007, 69 (10 percent) were caused by users inserting removable media such
as compact discs or connecting external or portable hard drives to their systems.

Recommendations
The Chief Information Officer should:
Recommendation 1: Schedule automatic scans of antivirus software on servers.
       Management’s Response: IRS management agreed with this recommendation.
       They will schedule automated antivirus scans on servers and will use the Symantec™
       Antivirus console to regularly monitor servers to ensure that antivirus scans are executed
       weekly as required by the Internal Revenue Manual.
Recommendation 2: Regularly remind administrators not to use their administrator accounts
to access the Internet and monitor Internet activity to determine whether administrators are
complying with this control.
       Management’s Response: IRS management agreed with this recommendation.
       They will issue regular reminders on Internet access restrictions for administrators by
       including information in mandatory annual security awareness training and by
       periodically publishing information in existing communication channels such as
       organizational webpages and newsletters. Management will also continually monitor the
       enterprise content filtering solution for Internet access by administrator accounts,
       regularly report violations to the Cybersecurity Operations organization and IRS Security
       Offices, conduct followup actions to validate the need for access, and remind
       administrators that such activity violates IRS policy.
Recommendation 3: Notify employees and their managers when their activity results in a
successful malicious code incident, particularly when the activity is a violation of IRS policy.
       Management’s Response: IRS management agreed with this recommendation. The
       Cybersecurity Operations organization will implement revised processes to facilitate the
       continued prevention, detection, and response to cyber incidents, while ensuring that
       employees and their managers are notified regarding applicable cyber incidents.
Recommendation 4: Update the IRS security awareness training to include the use of
portable and removable media among the common ways in which users can introduce malicious
code to the network and the potential effects.
      Management’s Response: IRS management agreed with this recommendation. The
      IRS will convert to the Information Systems Security Line of Business awareness training

                                                                                             Page 7
          While Controls Have Been Implemented to Address Malware,
         Continued Attention Is Needed to Address This Growing Threat



course (as mandated by the Department of the Treasury) that addresses the use of portable
and removable media being among the common ways in which users can introduce
malicious code to the network and the potential effects. Management will continue to
review updates to the training course content to ensure that this topic is included in the
final version.




                                                                                    Page 8
                    While Controls Have Been Implemented to Address Malware,
                   Continued Attention Is Needed to Address This Growing Threat



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether adequate security controls are present to prevent
and respond to malware1 attacks. We specifically reviewed the IRS’ responses to incidents
identified by the CSIRC for Calendar Year 2007.
The electronic data used in this review, with the exception of the CSIRC incident log, were
source data extracted directly from IRS systems. The Government Accountability Office
document Assessing the Reliability of Computer-Processed Data (GAO-03-273G, dated
October 2002) provides that information system reviews are an exception that does not require
data validation because the information system controls are tested as part of the review.
To accomplish our objective, we:
I.      Determined whether the IRS had adequate procedures in place to respond to and
        eradicate malware identified on IRS computer systems.
        A. Identified the requirements for responding to and eradicating malware identified on
           IRS computer systems from sources such as the Internal Revenue Manual, National
           Institute of Standards and Technology2 guidance, and the Department of the Treasury
           recommended Enhanced Cyber Security Controls.
        B. Assessed the adequacy of controls over malware incident response.
             1. Obtained a list of all malware incidents identified by the CSIRC for Calendar
                Year 2007.
             2. Determined whether the incident report was valid and complete.
             3. Determined whether IRS responses to incidents identified by the CSIRC followed
                IRS, Department of the Treasury, and other Federal Government requirements.
        C. Identified the reasons for inadequacy of responses to malware incidents.
        D. Assessed the effect of inadequate control weaknesses on responding to malware
           incidents.

1
  Malware, also known as malicious code or malicious software, refers to a computer program that is inserted into a
computer system with the intent of compromising the confidentiality, integrity, or availability of an organization’s
data, applications, or operating systems.
2
  The National Institute of Standards and Technology, a Federal Government agency within the Department of
Commerce, develops and issues standards, guidelines, and other publications to assist Federal Government agencies
in protecting their information and information systems.
                                                                                                            Page 9
                    While Controls Have Been Implemented to Address Malware,
                   Continued Attention Is Needed to Address This Growing Threat



II.      Determined whether the IRS had adequate controls in place to prevent malware from
         affecting IRS computers.
         A. Identified the requirements for preventing malware from being introduced into the
            network from sources such as the Internal Revenue Manual, National Institute of
            Standards and Technology guidance, and the Department of the Treasury
            recommended Enhanced Cyber Security Controls.
         B. Determined whether required controls to prevent malware had been implemented and
            were working properly.
             1. Determined whether administrator accounts3 are prohibited from web browsing
                and accessing other Internet connections outside of the IRS and the Department of
                the Treasury protected boundary, unless authorized in writing by the Chief
                Information Officer or his or her designee.
             2. Determined whether administrator accounts are prohibited from receiving email
                from accounts outside of the Department of the Treasury, unless authorized in
                writing by the Chief Information Officer or his or her designee.
             3. Determined whether known malicious sites, as identified to the Department of the
                Treasury from the US-CERT4 or other sources, are blocked (inbound and
                outbound) at each Internet Access Point (unless explicit instructions are provided
                to Bureaus not to block specific sites). Blocking is to be accomplished within
                2 business days following US-CERT or Departmental release of such sites.
             4. Determined whether the IRS blocked access to online email sites.
             5. Determined whether intrusion detection systems (or other functionally equivalent
                technology) are updated with new indicators/signatures5 as they are made
                available by the US-CERT or the Department of the Treasury.




3
  An administrator account is a user account present on several popular network operating systems that has the
highest level of control over a system and/or network. This account might have the ability to install hardware and
software on the system; add, modify, or delete user accounts; and modify a system’s security features.
4
  The US-CERT is a partnership between the Department of Homeland Security and the public and private sectors.
Established in 2003 to protect the nation’s Internet infrastructure, the US-CERT coordinates defense against and
responses to cyber attacks across the nation.
5
  A virus signature is the binary pattern of the machine code of a particular virus. Antivirus programs compare their
databases of virus signatures with the files on the hard disk and removable media to identify a virus. The antivirus
vendor updates the signatures frequently and makes them available to customers via the Internet.
                                                                                                            Page 10
                    While Controls Have Been Implemented to Address Malware,
                   Continued Attention Is Needed to Address This Growing Threat



             6. Determined whether antivirus software:
                  a) Is installed on all IRS workstations and servers.
                  b) Is updated with new virus signatures in a timely manner.
                  c) Includes spyware6 checking.
                  d) Is periodically run on all IRS computers.
                  e) Is updated and run each time an IRS computer connects to the IRS network.
                  f) Scans all portable media connected to an IRS computer.
                  g) Scans all incoming email.
         C. Identified the reasons for inadequate malware prevention controls.
         D. Assessed the effect of inadequate malware prevention controls.




6
 Spyware is software that collects information from computers and transmits it to third parties without the
knowledge or informed consent of computer users.
                                                                                                              Page 11
                While Controls Have Been Implemented to Address Malware,
               Continued Attention Is Needed to Address This Growing Threat



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services)
Stephen Mullins, Director
Kent Sagara, Acting Director
Michael Howard, Audit Manager
Carol Taylor, Audit Manager
Alan Beber, Senior Auditor
Charles Ekunwe, Senior Auditor
Myron Gulley, Senior Auditor
Joan Raniolo, Senior Auditor




                                                                                       Page 12
                While Controls Have Been Implemented to Address Malware,
               Continued Attention Is Needed to Address This Growing Threat



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Information Officer OS:CIO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief Information Officer OS:CIO




                                                                       Page 13
     While Controls Have Been Implemented to Address Malware,
    Continued Attention Is Needed to Address This Growing Threat



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 14
 While Controls Have Been Implemented to Address Malware,
Continued Attention Is Needed to Address This Growing Threat




                                                       Page 15
 While Controls Have Been Implemented to Address Malware,
Continued Attention Is Needed to Address This Growing Threat




                                                       Page 16
